CERTIFICATE OF SERVICE

I, Johnny Benjamin, hereby certify that on this

3

day of

(J&L.

2020, a

true and current copy of the foregoing Writ of Certiorari was served via United
States Postal Mail Service or third party carrier to:

Solicitor General of the United States
Room 5614, Dept, of Justice
Pennsylvania Ave. N.W.
Washington, DC 20530 0001

Respectfully Submitted,
-----/

Johnny Benjamin, MD
Reg: #16689-104
FCC Coleman USP-1 Unit J
PO Box 1033
Coleman, FL 33521-1033, Pro Se

DECLARATION OF INMATE APPEARING PRO SE

I, Johnny Beniamin #16689-104, am incarcerated at FCC Coleman USP-1 acting
pro se. Despite my family's best efforts, I was unable to obtain the services of an
attorney willing to file a Writ of Certiorari to the Supreme Court. I can afford the
docketing fee of $300 but do not have access to supply the number of copies required
or the ability to bind the booklet as instructed. I can comply with the procedures as
delineated for an inmate i.e. providing the unbound original document to the Court
and service to the Solicitor General's office.
I declare under penalty of perjury under the laws of the United States on this day 3
3 day of September 2020 that the foregoing is true and correct.

Respectfully Submitted,
_
/

Johnny Benjamin, MD
Reg#: 16689-104
FCC Coleman USP-1 Unit J
PO Box 1033

received
Coleman, FL 33521-1033, Pro Se

SEP 1 5 2020

